Jacob Karabell
April H. Pullium
BREDHOFF & KAISER PLLC
805 Fifteenth Street NW
Suite 1000
Washington, DC 20005
202.842.2600
jkarabell@bredhoff.com
apullium@bredhoff.com
Attorneys for AFSCME Council 31 and Local 672

Jason T. Manning
HODGES, LOIZZI,
EISENHAMMER, RODICK & KOHN LLP
3030 Salt Creek Lane
Suite 202
Arlington Heights, IL 60005
847.670.9000
jmanning@hlerk.com
Attorney for Moline-Coal Valley School District No. 40

FRANK H. BIESZCZAT
Assistant Attorney General
100 West Randolph Street
12th Floor
Chicago, Illinois 60601
312.814-2234
fbieszczat@atg.state.il.us
Attorney for A.G. Raoul and the members of the IELRB

